<html>
<title> - [H.A.S.C. No. 115-23] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 115-23]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                THE CURRENT STATE OF THE U.S. AIR FORCE

                               __________

                              HEARING HELD
                             MARCH 22, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-089                       WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Jodi Brignola, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Miller, Lt Gen Maryanne, USAF, Chief of Air Force Reserve, 
  Headquarters, U.S. Air Force...................................     4
Rice, Lt Gen L. Scott, USAF, Director, Air National Guard, 
  Headquarters, U.S. Air Force...................................     3
West, Maj Gen Scott D., USAF, Director of Current Operations, 
  Deputy Chief of Staff for Operations, Headquarters, U.S. Air 
  Force..........................................................     5

                                APPENDIX

Prepared Statements:

    Rice, Lt Gen L. Scott, joint with Lt Gen Maryanne Miller and 
      Maj Gen Scott D. West......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Scott....................................................    52
    Mr. Wilson...................................................    51

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
                
                
                THE CURRENT STATE OF THE U.S. AIR FORCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Wednesday, March 22, 2017.
    The subcommittee met, pursuant to call, at 2:13 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, I call this hearing of 
the Readiness Subcommittee of the House Armed Services 
Committee to order.
    I am pleased to welcome everyone here today for an 
unclassified session on the current state of the U.S. Air 
Force. The purpose of this hearing is to clarify the 
information we have heard repeatedly over the past several 
weeks and months. We have received briefings and hearings from 
leading national security experts, testimony from all of the 
service vice chiefs, the Department of Defense's quarterly 
readiness report to Congress, and the Government Accountability 
Office assessment of the military's readiness recovery.
    We have also recently heard from both the U.S. Army and the 
U.S. Navy on those services' current state of readiness. Each 
briefing and hearing further confirms that our services are 
indeed in a readiness crisis.
    I reiterate my belief that the first responsibility of the 
Federal Government is to provide for the security of its 
nations, to accomplish for citizens what they cannot do by 
themselves.
    Therefore, it is our responsibility as members of the 
subcommittee to continue to better understand the readiness 
situation of the U.S. Air Force, to understand where we 
continue to take risks and to understand the plan to recover 
readiness ability.
    I would like to welcome the distinguished panel of senior 
leaders of the U.S. Air Force, the U.S. Air National Guard, and 
the Air Force Reserve present today. This afternoon, we are 
honored to have with us Lieutenant General L. Scott Rice, U.S. 
Air Force, Director, Air National Guard; Lieutenant General 
Maryanne Miller, U.S. Air Force, Chief of Air Force Reserve, 
and Commander, Air Force Reserve Command; and Major General 
Scott D. West, U.S. Air Force, Director of Current Operations 
and Deputy Chief of Staff for Operations, Headquarters, U.S. 
Air Force.
    I thank each of you for testifying today and look forward 
to your thoughts and insights as you highlight the current 
state of the U.S. Air Force.
    I now turn to our ranking member, Delegate, Congresswoman 
Madeleine Bordallo of Guam, for any remarks she may have.

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. And thank 
you to the witnesses for being here this afternoon.
    General Rice, I would also like to thank you again for your 
January visit to the territory of Guam.
    And welcome to General Miller and General West.
    We have had airmen from all squadrons deployed over the 
past year. And as you know, our men and women of the Guam Air 
National Guard are keeping busy, and I know they appreciate 
your support. And of course, there is significant investment 
and activity at Andersen Air Force Base, which will require 
continued attention as the most strategic American base in the 
Pacific region.
    I would also like to note my appreciation that each 
component of the Air Force is represented today, given that we 
had to reschedule the Reserve Component discussion last year.
    While some challenges, such as critical skills shortages, 
affect each component, they do so differently. So it is 
essential that we receive perspectives from each of you to 
fully understand the Air Force's state of readiness.
    This is the third in a series of hearings we have held in 
this subcommittee on the state of the military departments. 
However, the Air Force is unique in that the demand for its 
units has increased in recent years while the service has 
shrank.
    While we will certainly discuss pilot shortages, I am also 
interested to learn about where recruiting and retention 
challenges are facing other critical specialties.
    The new administration has proposed a significant increase 
in military spending, the majority of which is, theoretically, 
to help build back readiness in the short term. However, it is 
not clear that the Department of Defense has a coherent view to 
do so in the long term. And I will be interested to hear about 
the Air Force's plan to meet both its near- and long-term 
readiness and what methods are in place to guide your progress.
    I am concerned that without careful attention, existing 
challenges could be compounded, as we are likely to continue to 
sustain high operational tempos.
    So again, ladies and gentlemen, I look forward to our 
discussion here today. And I, again, thank you to our witnesses 
for being here and for your service to our great country.
    Mr. Chairman, I yield back.
    Mr. Wilson. And thank you, Congresswoman Bordallo, for your 
extraordinary service.
    We will now have opening statements beginning with General 
Rice and proceed. And we look forward to your testimony today.

STATEMENT OF LT GEN L. SCOTT RICE, USAF, DIRECTOR, AIR NATIONAL 
              GUARD, HEADQUARTERS, U.S. AIR FORCE

    General Rice. Thank you, sir. Chairman Wilson and Ranking 
Member Bordallo and the distinguished members of the committee, 
thank you for inviting me here today to join the Active 
Component and the Air Force Reserve in the discussion about the 
United States Air Force readiness.
    First, I would like to express my sincere appreciation to 
the men and women of the Air National Guard for their hard 
work, professionalism, and dedication to serving this great 
Nation. Day in and day out, we have 105,700 uniformed Guard 
airmen as well as civilians serving with great distinction and 
patriotism as they help defend the homeland and support 
America's national security interests around the world.
    I also want to thank you for your support of the Air 
National Guard and its important mission.
    Today, the Air National Guard, as an operational Reserve, 
continues to be exceptionally capable and effective in its 
global warfare, warfight, and domestic roles. The complexities 
and uncertainties of the strategic environment underscore the 
importance of ensuring that the Air National Guard is resourced 
to respond successfully to the Nation's growing reliance on its 
capabilities.
    We ask a lot of our people and it is my job to ensure our 
airmen have the resources and training to do the jobs we ask 
them. Readiness is my first priority, followed second by 21st 
century Guard airmen, with modernization and recapitalization 
third.
    Our lines of effort in these areas will enable the 
successful accomplishment of the National Guard's core mission 
sets of fighting America's wars, protecting and defending the 
homeland, and building domestic and global partnerships.
    Readiness is more than an isolated priority within the Air 
National Guard. Improved readiness implicitly includes 
advancement in my two other priorities. The Air National Guard 
is undertaking two lines of effort to improve readiness.
    First, we are working to increase end strength and 
effective manning. As you know, end strength alone does not 
tell an accurate story about readiness. A better indicator of 
readiness is effective manning or measuring the amount of fully 
qualified Guard airmen who occupy positions within their career 
field.
    I need your support for a wide variety of recruiting and 
retention initiatives in order to ensure I have the right 
airmen in the right positions. I would also ask for your 
support to take advantage of opportunities to recruit new 
members into the Air National Guard, including those separating 
from the Active Component.
    My second line of effort to improve readiness is maximizing 
training opportunities and the funding to support it. Right 
now, the total force faces a training shortfall in many 
critical areas. There simply is not enough initial training 
slots to meet demand. Numerous unit conversions, churn, endured 
by the Air National Guard over the past 15 years have increased 
the demand for training, which decreases the value of 
experience.
    We also need continuation training, the training in which 
our fully qualified Guard airmen must engage to remain current. 
Two ways to increase readiness to meet the continuation 
training demands are funding both a second-shift maintenance in 
order to make additional aircraft available and authorizing and 
funding the additional full and drill status positions.
    This committee's interest, knowledge, support, and time is 
vital to increasing the readiness of the Air National Guard. 
Together, we must ensure the men and women of the Air National 
Guard have the support they need as they balance 
responsibilities at home, civilian careers, patriotic domestic 
service, and their responsibility that this commitment is to 
our national security. We must ensure they are prepared for the 
tasks we expect them to perform.
    Thank you for inviting me here today, and I look forward to 
your questions.
    [The joint prepared statement of General Rice, General 
Miller, and General West can be found in the Appendix on page 
27.]
    Mr. Wilson. Thank you very much, General Rice.
    General Miller.

 STATEMENT OF LT GEN MARYANNE MILLER, USAF, CHIEF OF AIR FORCE 
             RESERVE, HEADQUARTERS, U.S. AIR FORCE

    General Miller. Chairman Wilson, Congresswoman Bordallo, 
and members of the subcommittee, I thank you very much for the 
opportunity to address you on the readiness of the Air Force 
Reserve.
    For 69 years, this Nation has called on the Air Force 
Reserve to support national security objectives and all types 
of military operations all over the globe. Today, the Air Force 
Reserve balances the operational agility needed for today's 
fight while simultaneously providing the strategic depth needed 
to respond to the unexpected and emerging threats of our 
Nation.
    Combatant commanders benefit from the capabilities and 
experiences our Reserve citizen airmen bring to the joint 
fight. On any given day, there are approximately 6,000 Air 
Force Reservists on Active Duty orders operating in air, space, 
and cyber domains, supporting overseas contingency efforts and 
operations around the globe.
    Ready airmen ensure the capability of a unit to accomplish 
its designed mission to meet the demands of the National 
Military Strategy when called upon. Over the past few years, 
shrinking defense budgets and lack of fiscal stability have 
stressed our readiness levels, threatening our ability to reach 
and sustain full readiness. Congress' efforts to assist with 
our budget shortfalls have helped, but permanent relief from 
the BCA [Budget Control Act] caps is crucial to a steady and 
enduring full readiness recovery.
    As I measure the state of readiness within the Air Force 
Reserve, I assess across the spectrum of people, equipment, 
training, and the demands of the operational tempo. As you 
know, our people are our greatest asset to ensuring global 
vigilance, global reach, and global power.
    In order to support emerging mission requirements of the 
Air Force while continuing to support enduring combat missions, 
I need a slight growth in manpower over the next few years.
    With respect to our personnel readiness challenges, I am 
focused on three main areas, the first being the pilot 
shortage, the second, the shortfalls in full-time support, and 
finally, critical skills manning.
    The readiness and modernization of our aircraft and 
equipment are essential to maintaining an agile, combat-
capable, and interoperative Air Force. The Air Force Reserve 
leverages the National Guard and Reserve equipment 
appropriation to increase capability and ensure 
interoperability within the joint fight. This account is 
particularly important in this fiscally constrained 
environment, and I want to thank you all for your tremendous 
support of that account.
    Training is our number one job when not engaged in the 
fight. To maximize our training successes, we need predictable, 
reliable funding and training allocations in order to match our 
resources to our Reservists' availability.
    Over the last 26 years of being engaged across the globe in 
exercises, contingencies, and operations, we have successfully 
adjusted to an operational Reserve. Portions of our force are 
stressed, but our airmen are resilient, engaged, and honored to 
serve.
    Thank you for your tremendous support of the Air Force 
Reserve and for the opportunity to discuss our readiness. I 
look forward to your questions.
    Mr. Wilson. Thank you, General Miller.
    We now proceed to General West.

 STATEMENT OF MAJ GEN SCOTT D. WEST, USAF, DIRECTOR OF CURRENT 
OPERATIONS, DEPUTY CHIEF OF STAFF FOR OPERATIONS, HEADQUARTERS, 
                         U.S. AIR FORCE

    General West. Chairman Wilson, Ranking Member Bordallo, 
distinguished members of the Subcommittee on Readiness, thank 
you for conducting this hearing and allowing me to join the 
leadership of the Air National Guard and Air Reserve Command in 
testimony on readiness.
    For the past 69 years, the Air Force has been breaking 
barriers as a member of the finest joint warfighting team on 
the planet. We have protected the homeland, provided two legs 
of the Nation's nuclear triad, and provided unmatched air, 
space, and cyber dominance. Our joint partners and allies rely 
on us. We ensure freedom from attack, the ability to attack at 
a time and place of our choosing, and the ability to operate 
freely in peace and in combat. In no modern war, no other 
nation has achieved such an asymmetric advantage.
    We describe what we provide to the Nation as global 
vigilance, global reach, and global power. By global vigilance, 
airmen have built a real-time global intelligence and command 
and control network that can find, fix, and finish the smallest 
of targets, to include individuals who wish to do us harm.
    Airmen operate multiple satellite constellations which 
range from GPS [Global Positioning Satellite] and space 
situational awareness, to nuclear warning and protected 
satellite communications. Cyber operators build, secure, 
operate, and defend our networks and are ready to take 
offensive actions in, from, and through cyberspace.
    Via global reach, airmen rapidly range the earth to respond 
to a crisis or deliver critical supplies or personnel to any 
location on the planet. Airmen are engaged 24/7 with an 
aircraft taking off every 2.8 minutes somewhere around the 
globe.
    Airmen are in 23 countries at 77 locations operating a 
global system of airfields that enable operations of allies and 
joint partners. It is the strength and reliability of our 
mobility forces that make the U.S. military a global force.
    Via global power, airmen can strike an enemy on short 
notice anywhere in the world with fighters, bombers, remotely 
piloted aircraft, and ICBMs [intercontinental ballistic 
missiles]. Air Force special operators conduct counterterrorism 
operations daily while our nuclear force provides the 
foundation for deterrence.
    Airmen provide two legs of the triad and are responsible 
for resourcing 75 percent of the nuclear command and control 
and communications network that connects the President to the 
triad.
    In sum, your airmen fight from just about anywhere at any 
time. More than 100,000 airmen stand watch around the globe in 
deployed locations, from Korea to the Arabian Peninsula.
    In the United States 27,000 airmen are engaged in 
operations against ISIS [Islamic State of Iraq and Syria], from 
flying bomber sorties to conducting surveillance missions from 
the homeland.
    However, the Air Force is as small as it has ever been. 
Many envision our Air Force is as large as the one that helped 
win Operation Desert Storm in 1991. That is not reality. At the 
start of 2016, our numbers stood at 311,000 Active Duty, down 
from more than 500,000 during Desert Storm, a 38 percent 
decrease.
    For 26 years, the Air Force has conducted continuous combat 
operations, resulting in a growing toll on airmen, their 
readiness, and their equipment. That 1991 force, which featured 
134 fighter squadrons across the Active, Guard, and Reserve, 
has gradually declined to a total of 55 operational fighter 
squadrons today. We have become more reliant on our civilians 
for critical mission support. Though we will increase the force 
to about 321 [thousand] in 2017, that size will be too small 
for the myriad tasks that America's airmen perform around the 
world every day.
    Over this same time period, the Air Force has also reduced 
its aircraft inventory from 8,600 to 5,500. And today, the 
average aircraft is 27 years old.
    The Nation faces today a resurgent Russia, a rising China 
powered by new warfighting approaches and modern weapons. We 
keep a watchful eye on North Korea, Iran, and other hot spots 
around the globe. Accordingly, current budget levels and Budget 
Control Act restrictions will force the Air Force to continue 
to make tradeoffs between force structure, readiness, and 
modernization, all while potential adversaries close the 
technological gap in critical warfighting areas.
    Our Nation needs to increase its investment in the Air 
Force's force structure, readiness, and modernization. With the 
focus of today's hearing being readiness, I note that 
investments in all three result in readiness improvements. For 
example, modernization investments today underpin the readiness 
of our future.
    Nonetheless, to begin to improve readiness now and attain 
manning levels that match requirements, the Air Force must 
increase its Active Duty, Guard, and Reserve end strength to 
include growing the Active Duty end strength to 350,000 over 
the long term. Assessing and retaining more airmen is the first 
step to improve our readiness.
    Today we need congressional support for an FY17 [fiscal 
year 2017] appropriation and amendment that accelerates our 
readiness recovery. Repeal of the Budget Control Act and 
predictable future funding are critical to rebuilding military 
readiness, a priority of our Secretary of Defense.
    The Bipartisan Budget Act was extremely helpful. And on 
behalf of the airmen who serve our Nation, thank you for your 
support. I look forward to your questions.
    Mr. Wilson. And thank you to each of you. And we will now 
begin with 5-minute sections for each person.
    And Margaret Dean will maintain our time.
    Even before we begin, I want to thank each of you in a 
different way. The Air National Guard is so special and the 
district that I represent with the McEntire Joint Air Base. I 
grew up in Charleston, and I know how important the Reserves 
are there.
    And then, General, when you mentioned 1991, it brought back 
extraordinary memories of a State Senate colleague, Phil 
Leventis, who was a pilot in 1991, the victory there in the 
Persian Gulf War.
    So each one of you really have made such a difference for 
our country. Thank you very much.
    General Rice, I understand the Air Force is looking to 
retire the F-15C/D fleet as a cost-saving measure and try to 
fill the air superiority role with F-16s. Clearly, these are 
two different types of aircraft with different capabilities. 
What would replacing the F-15C/D fleet with F-16s, would this 
have a negative impact on air superiority? Is there a risk with 
this decision?
    General Rice. There is a risk in changing any of our force 
structure decisions. But specifically on the F-16 with the F-
15, there are capabilities we can add and provide on the F-16 
that will provide us a gap as we try to go into the future. So 
overall, our readiness and then our protection of the U.S. will 
change. But I think overall, we will be okay.
    Mr. Wilson. And so this could be addressed?
    General Rice. Yes, it could be addressed.
    Mr. Wilson. And, General West, provided in today's hearing 
memo is a copy of the Air Force's aircraft availability 
numbers. These reflect how many aircraft are fully mission 
capable and available to be flown. All but one aircraft type 
model failed to meet that requirement in the last quarter. In 
fact, I understand that just this morning two B-1 aircraft were 
scheduled to respond to a clear and present danger in North 
Korea, yet only one aircraft was able to be successfully 
launched.
    For too long, the dictatorship in North Korea has become 
emboldened, testing weapons and missiles, but also testing and 
expanding their ballistic missile capability. And I have 
introduced bipartisan House Resolution 92 to address the issue 
of sanctions on North Korea.
    Can you please explain to us the impact of nearly every 
type of Air Force aircraft failing to achieve the aircraft 
availability targets? Does this have impact on our strategic 
response?
    General West. Yes, sir, it does. It has impacts on our 
ability to recover readiness. As I said in my prepared 
statement that the average age of our fleets is 27 years old; 
it ranges from the oldest which is JSTARS [Joint Surveillance 
Target Attack Radar System], down to our newest acquisition 
which is F-35s that have just joined the fleet.
    Given that the age of the aircraft and parts obsolescence 
and the fact that older aircraft tend to fail in newer ways, it 
is more difficult to make them available for training, which 
affects our readiness. Coupled with our shortage of maintainers 
to be able to generate sorties to improve our readiness and 
enable us to train for full-spectrum operations, it exacerbates 
the issue with sustaining older fleets with less-than-required 
manning in order to achieve the readiness levels that we need 
to.
    As to continuous bomber presence in Guam, we have done that 
for years, we will continue to do that in Guam. And it is 
important that we do that not only for dissuasive reasons in 
the Pacific, but also to assure allies. We conduct exercises 
and training events with allies and partners in Guam on a 
routine basis. We will continue to do that with appropriate 
funding.
    So it is important that we be able to generate the sorties 
when we want to to have the effect that we want to have on the 
day and the time of our choosing. And it is more difficult to 
be able to rely upon that when the systems we operate can't be 
generated in a timely manner.
    Mr. Wilson. And thank you for responding.
    And, General Miller, during the past few years, the Air 
Force has espoused the idea of an integrated total force as a 
model for integration of Active Duty, Reserve, and National 
Guard. A key example is the use of classic and active 
associations between the Active Duty and Guard, Reserve 
Components. What impact do these associations have on Air Force 
readiness? What are the benefits of these associations and 
should they be expanded in the future?
    General Miller. Sir, we have been associating since 1968. 
And associations are critical to our readiness in order to be 
able to get the mission done every day. We are the smallest Air 
Force that we have ever been and it takes each one of our 
components at this table to get the mission done. Integration 
is key.
    On the classic association side, we have been doing it, as 
I said, since 1968. On the active association side, Active 
Component members join us in the Guard and Reserve as we own 
the aircraft on the ramp and they participate.
    This is critical to the absorption on the fighter side of 
our force to absorb pilots and to experience them so they can 
then go back out and do staff jobs and do other things that 
work towards them becoming our future leaders of the Air Force. 
So associations are critical to our future. And we are 
committed to them at the Air Force Reserve level and through 
each component.
    Mr. Wilson. And thank you each for your response and your 
service.
    We now proceed to Ranking Member Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General Rice and General Miller, to what extent are you 
experiencing pilot and other critical skill shortages? We know 
that bonus and incentive programs alone are not a cure-all as 
quality-of-life concerns persist. So where are you finding 
success in addressing these issues? And how can we in Congress 
assist you?
    And we will begin with General Rice.
    General Rice. We are definitely feeling the similar types 
of pilot shortages that the Active Component is experiencing. 
For example, we have over our whole fleet of pilots we are 
probably approximately 800 to 900 pilots short.
    And we are working on our different statuses, from our 
Active, Guard, and Reserve members that are pilots, to our 
technicians that are pilots, both of those are full-time 
personnel, to our drill-status guardsmen and our part-time 
pilots. And each one of them have different metrics and 
different reasons on why we have shortages. And our most 
critical one is our technicians. And a piece of that is, is the 
way that that model is constructed.
    So what we are attempting to do as we go into the future 
budgets is convert some of this program to an AGR [Active 
Guard/Reserve]-type program, and that will help us because that 
is one of our strongest accounts.
    Ms. Bordallo. Thank you.
    General Miller.
    General Miller. We are currently 300 pilots short across 
the Air Force Reserve. Our part-time numbers, our percentage of 
part-time pilots is around 92 percent. It is the full-time 
piece that we are struggling with right now. We are roughly 66 
percent manned on the full-time side. And that is due to 
overall the pull from the airlines, and the second part of that 
is being able to compete in the salary range of the technician 
force.
    So where could we use your assistance? In relocation, 
retention, and bonuses. We are providing bonuses, but we could 
really use your help on special salary rate and recruiting, 
retention, and relocation bonuses.
    Ms. Bordallo. Thank you. Thank you, General.
    General Miller. Thank you.
    Ms. Bordallo. I have a question for General West. As force 
structure declines and weapon systems and aircraft experience 
different issues and challenges, is the way we measure 
readiness a single, static Air Force goal for a percentage of 
C-1 and C-2 units? Is its simplest form, is that helpful, or do 
we need to revisit to ensure we are speaking most accurately 
when talking about readiness levels?
    General West. We measure readiness, ma'am, in two different 
ways, and they are both related to--well, one way is readiness 
for what? And we measure that through the Defense Readiness and 
Reporting System where commanders get to subjectively assess 
their capacity to meet their mission statement. That covers the 
what part.
    And our concern about the what part is not that we don't 
have capacity and won't continue to have capacity to support 
operations related to counterterrorism. We can continue to do 
that as airmen. The issue we have is our readiness to conduct 
combat against a near-peer adversary or the systems that they 
export. That is a much tougher issue on the readiness for what, 
and that is what we mean by full-spectrum readiness. That is 
the what.
    The other thing that we measure is ready with what. And the 
with what gets to metrics of, do you have the right personnel? 
Are they trained to the right skill level? Do they have the 
right equipment? And are they properly resourced, the status of 
resource, and training system that we have had in existence in 
the Department of Defense?
    I think the combination of the two of them are important to 
take together, an objective, whether or not you agree with the 
percentages or not, because all the services have the same 
percentages on the ready with what, and then a subjective 
commander's assessment, do I think my unit is prepared to 
support its mission statement. And those two together inform 
how we measure readiness.
    Ms. Bordallo. Thank you. I don't have much time left, so if 
you can be brief in your answers, I would like to really ask 
each of you, we have heard you speak of the five key areas 
needed for readiness. In other words, which is your biggest 
concern, your number one priority?
    General Rice.
    General Rice. If there is one thing I could do, it would be 
put more maintenance on the flight line, so part-time and full-
time.
    Ms. Bordallo. General Miller.
    General Miller. Manpower, part-time, full-time.
    Ms. Bordallo. And General West.
    General West. Manpower, ma'am.
    Ms. Bordallo. Thank you. And, Mr. Chairman, I still have 22 
seconds, but I am yielding back.
    Mr. Wilson. Excellent questions. Again, we can count on the 
ranking member. Thank you very much.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. General West and General Rice, in the joint 
testimony you mentioned the C2ISR [command and control, 
intelligence, surveillance, and reconnaissance] platform and 
specifically the E-8C JSTARS aircraft.
    And, General West, could you explain how or why it is so 
important to the joint and combatant commanders' needs?
    And then, General Rice, could you give us some input on how 
we or the Air Force program office could accelerate the 
acquisition process? And what do you think the process should 
look like?
    General West. JSTARS has and will continue to have and 
provide an important capability to provide battle management 
command and control and provide an all-weather ground moving 
target indicator capability to be able to detect enemy 
movements on the ground. The demand for that from combatant 
commanders, I do not see that that will diminish.
    General Rice. And from my point of view, as I see it, two 
parts to that question on the acquisition process and then how 
we would accelerate it. I am not really well-versed because I 
am not an acquisition person, so most of that I will take for 
the record and say how do we accelerate this. I will push that 
to the record and say we can get back to you on that.
    [The information referred to can be found in the Appendix 
on page 52.]
    General Rice. The other piece, though, on acquisition is I 
think the Air Force is in a good place right now. And moving 
forward, we have made the decision to fundamentally support the 
mission requirements that General West just talked about. And 
now we are down to the process of requesting information, 
getting contractors to start building the packages to present a 
platform with a capability on it. And I think we are heading in 
a good direction. But how we accelerate, I will take that for 
the record.
    Mr. Scott. Thank you.
    General Miller, you have stated that you were focusing on 
critical skills manning. And what exactly does that mean? And 
what is the impact on your mission?
    General Miller. Critical skills are those career fields 
that do not have enough people to support them based on the 
demand. So the manning is low and the demand is high. So those 
are the critical skills that we target. So within the Air Force 
Reserve, those career fields are the pilots and it is across 
the fighter, mobility, RPA [remotely piloted aircraft], it is 
across all spectrums of that.
    On the enlisted side, it is cyber, intel, and RPA sensor 
operators. So those are the key. I have a longer list, but 
those are the critical, those are the most critical of the 
critical. And we provide incentives for those folks to bring 
them in and keep them because, like I said, they are in high 
demand, but there are few of them.
    Mr. Scott. In your opening statement, you referred to the 
emerging mission requirements. Growth in manpower over the next 
few years in those areas, emerging mission areas for the Air 
Force Reserves, what do you see the volume of that growth being 
and in what particular areas?
    General Miller. We would really, first of all, like to get 
our manning documents up to 100 percent to meet that wartime 
readiness requirement. That will help with our ops [operations] 
tempo.
    The second growth area would be in the space arena, looking 
at future growth in the intel support of all space ops. And I 
am working with General Raymond on that.
    In the cyber community, really it is a growth with the 
Active Component in mission defense teams, cyber mission forces 
and, of course, supporting the combatant commander joint 
environment in the cyber ops arena. So it is really the space 
and cyber that we are going to focus most of that on.
    Mr. Scott. General West, in the joint testimony, again, you 
relay that installations are in excess of our operational 
needs, specifically in the continental U.S. In addition, during 
the state of the military hearing last month, General Wilson 
related there are 25 percent of excess in Air Force 
infrastructure. How is this calculated and what is included? Is 
it 25 percent of aircraft support facilities, such as runways, 
hangars, et cetera? Is it 25 percent of overall base 
infrastructure to include workspace facilities and housing? 
What installations specifically have excess? And if we did not 
have--if we weren't 900 pilots short and the aircraft short, 
would we have that excess capacity?
    General West. Sir, if the Congress supported Air Force 
growth to 350,000, we would still have 24 percent excess 
infrastructure capacity. Today, we have a backlog of $25 
billion in either MILCON [military construction] or facilities 
sustainment, restoration, and modernization. If we were to be 
able to apply $1 billion per year, it would just arrest the 
decline of what we have got to do to keep facilities up to 
proper standards.
    That is a tradeoff of how much money we put into proposals 
for MILCON and facilities sustainment and restoration and 
modernization versus how much funds do we recommend to 
modernize, to new aircraft, B-21s, F-35s, KC-46s, versus how 
much funds do we propose to recapitalize existing fourth-
generation systems versus how big is our end strength.
    Our total obligation authority is limited, so we have to 
make tough choices. That is why in the comments I think that 
our vice [chief] made, we would recommend that another round of 
base realignment and closure be initiated by Congress.
    Mr. Scott. Ma'am, gentlemen, thank you for your service. 
Mr. Chairman, I yield.
    Mr. Wilson. Thank you very much, Congressman Scott.
    We now proceed to Congressman Salud Carbajal of California.
    Mr. Carbajal. Thank you, Mr. Chairman and Ranking Member.
    And thank you to all the generals that are here presenting 
to us today.
    I have the honor of representing Vandenberg Air Force Base, 
home to the 30th Space Wing, where the Joint Space Operations 
Center and Joint Functional Component Command for Space are 
located and where various launch operations take place.
    In your joint testimony, all of you have stressed the 
importance of U.S. ability to effectively operate within the 
space domain. However, I have some concerns in terms of the 
lack of investments we are making in space, especially as space 
has to compete with other Air Force priorities, such as more 
aircraft.
    There is a concern that the Air Force is not investing 
enough in the research and development area, and we are losing 
the talent pool that we need to maintain space superiority. I 
would like to hear from you on what steps the Air Force is 
taking to ensure Vandenberg Air Force Base--I am losing my 
sheets here--on what steps Vandenberg is taking to ensure that 
readiness in space, including sustaining a strong space 
industrial base.
    General Rice. I will start with answering actually a very 
narrow piece of that. The Air National Guard supports space 
operations in a number of places, but our forte is that surge 
to war capability. As space evolves into a benign environment 
to a contested environment, the Air National Guard is very much 
a piece of that.
    And so as we build capability and as General Miller talked 
about one of her priorities is space, that is among our first 
priorities as well, to provide combat-ready airmen to the 
enterprise and the agency to provide all these capabilities 
with space. Thank you.
    General Miller. Congressman, space is certainly a priority 
for me. As I spoke before, I sat with General Raymond, actually 
General Hyten before he left for STRATCOM [U.S. Strategic 
Command] and then General Raymond, and we talked about the 
future of space and the Reserve Component piece of that.
    Currently, I have 1,500 space professionals and operators 
in that space environment. And we are looking to grow in the 
space mission forces along with General Raymond. And we are 
working specifically on areas to leverage our space 
capabilities. We do have civilians who work in the space 
industry and those folks are also, in some cases, Reserve 
citizen airmen, so we are leveraging that experience.
    It is a priority. I can't get out ahead of the growth, but 
I can certainly be a wingman for that growth.
    General West. Sir, I would highlight two initiatives that 
the Air Force has underway, initiated by Air Force Space 
Command, General Hyten during his tour of command. One is 
development of the space mission force and the second is space 
enterprise vision.
    The space mission force is changing the way we provide 
space airmen such that they concentrate more on conducting 
operations in a contested environment. It is demonstrated 
contested something along the order of 10 years ago, China 
launched an anti-satellite weapon on one of its own degrading 
satellites to demonstrate that the domain is contested.
    So what space mission forces does is changes the training 
regimen that includes, how do we operate systems wherein we are 
contested? How do we develop the techniques, tactics, and 
procedures so that we continue to provide all the capabilities 
that we need across all the joint forces to conduct operations? 
We rely on space, and it is our asymmetric advantage.
    The space enterprise vision is getting at, how do we field 
systems that cannot only continue to provide protected 
communications, space situational awareness, GPS position, 
navigation, and timing, et cetera, that all the 12 
constellations provide, but how do we field those that are more 
resilient? And how do we build our capacity to know and have 
more space situational awareness?
    Between the two, equipping the force and focusing our 
training on a contested environment, I think that is the proper 
way to go forward. And Vandenberg is a big part of it since it 
is one of only two places that we have to conduct launches and 
it gives us an opportunity to choose between the two based on 
the conditions for each launch.
    Mr. Carbajal. Thank you very much. I yield back.
    Mr. Wilson. Thank you, Congressman Carbajal.
    We now proceed to Congresswoman Vicky Hartzler of Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you all for 
your service. We appreciate you very much.
    General West, I just want to follow up, the chairman was 
asking about the F-15s. And General Wilson, as you know, 
testified that only 50 percent of the combat air forces were 
prepared for a high-end fight, like might be encountered over 
South China Sea or Eastern Europe. And many of our air-to-air 
fighters were designed and built during the late 1970s and 
cannot face new threats, such as the Chinese J-20, without 
capability enhancements and service life extension.
    So I was wondering if you could give us some insight into 
the Air Force's plan to bridge the capability gap between now 
and the next-generation air dominance program. And do you 
foresee the Air Force making significant investments into 
aircraft, such as the F-15C, with upgrades and service life 
extension programs? And if not, what are the alternatives?
    General West. Thanks, ma'am. As General Rice had just 
mentioned briefly here, the choices that we have to make, given 
certain total obligation authority, it balances the choices 
that we have to make. The F-15C has served the Nation well, as 
have its pilots for decades, and it was our air superiority 
fighter. Now F-22 has taken that role.
    We do have capacity in the F-16C community to recapitalize 
it with an improved radar to serve the same function as the F-
15 has done, and thereby reduce the different systems that we 
have to sustain and operate. And that makes it more efficient 
so that we can make other choices, either for modernization or 
grow end strength, without having multiple different systems to 
maintain.
    Mrs. Hartzler. Okay, great. And I wanted to follow up also 
on, both, General Rice, and you, General West, talked about the 
maintainer issue. And that is something that I have been very 
concerned about, too, is the shortfall there.
    So, you know, one Fox News report said there was 4,000 
aircraft maintainers short, short vital parts. So how have 
these shortfalls affected the Air Force's ability to generate 
the necessary forces to meet mission requirements? And do these 
shortages still exist? And if so, how does the Air Force plan 
to address them?
    General Rice. Those shortages definitely exist. And 
fundamentally, what we are doing now is we have built a 
maintenance model to maintain our flying the aircraft. And as 
the aircraft age and get older, they require more maintenance 
and we haven't changed that model. And we have underfunded 
those to meet the Budget Control Act and sequestration limits.
    So accordingly now, we are asked, do you need more money 
and where would you put it? I would put it in maintenance. And 
I would put it in maintenance in two ways. One is to fill out 
our documents as they are existing now, and then I would even 
add more authorizations on top of that and fill those out as 
well. And I am asking not only for the authority to increase 
that manning, but the funding to fund that and the 
authorization.
    And also at the same time, I am asking for the authority 
and the authorization to increase our overall manning of the 
Air National Guard to grow from roughly 106,000 to 110,000. 
Most of that I will put into maintenance to flesh this out and 
add more maintenance, more hours on the jets to keep those jets 
flying at a higher rate.
    Mrs. Hartzler. Very good.
    General West.
    General West. Ma'am, we appreciate the support that 
Congress has given us to be able to address our maintenance 
shortfalls. Absent filling our manning documents for 
maintenance, it is difficult for us to generate the sorties on 
a fast-enough basis.
    But as something that General Rice said earlier, it is not 
just having the maintainers, it is having them in the right 
position, but more importantly what we have got to be able to 
grow to is that mid-career, noncommissioned officer who has 
been in the service 8 to 10 years, has done a lot of 
troubleshooting, has seen a lot of issues and has experience to 
guide our newly accessed maintainers on how to solve problems 
as quickly as possible. That is why it takes so long to get 
where we are fully ready.
    Mrs. Hartzler. Sure. That is where I am a fan of the 
Reserves and the Guard, they help bring that component in.
    General Miller, you want to add anything?
    General Miller. We are roughly 400 maintainers short. Our 
stress is--on the part-time side I am nearly 100 percent 
manned; it, again, is on the full-time side, that technician 
force. Because the draw there is I can't compete from a dollars 
perspective with the commercial or civilian industry on that.
    Mrs. Hartzler. Sure. And as a former teacher, and my 
husband and I own a farm equipment dealership, it is just very 
difficult to find people interested in being technical skills. 
You see that, having trouble with recruiting new people. If you 
had the funds to have more manning, are there enough people out 
there interested into going into, becoming maintainers?
    General West. Yes, ma'am, I think there is because there is 
a sense of patriotism that still exists in our younger 
generation.
    Mrs. Hartzler. Good.
    General West. And they want to join not only for patriotic 
reasons, but there is a lot of benefits that you can get, 
education and so forth, when you come into the military, the 
capability to go forward.
    Mrs. Hartzler. Absolutely, that is very encouraging. I am 
glad. Thank you.
    My time is up, appreciate it.
    Mr. Wilson. And thank you, Congresswoman Hartzler.
    We now proceed to Congresswoman Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman. Aloha and welcome. 
Lieutenant General Rice, it is good to see you.
    My question is about National Guard pay status. Obviously, 
the National Guard has a very unique role to play on many 
different levels and what has gone along with that is a wide 
variety of duty and pay statuses, whether it is a traditional 
drill-status guardsman, a dual-status technician, active 
guardsman as well as other various State and Federal statuses.
    Can you speak to your view on whether or not this large 
number of different statuses impacts the overall readiness of 
the Guard? Should it be simplified? Would it help? And if so, 
how should that be done?
    General Rice. I definitely think it adds complexity to our 
organizations. Not only does the pay status diverge among 
different statuses, there are whole different authorities that 
come with each one. Our dual-status technicians are under great 
stress. They don't carry the protections that an Active, Guard 
and Reserve and AGR member might have.
    So accordingly, I would like to simplify the program. And 
indeed, I am starting down the path to say it seems that AGR 
status is a less costly status for us, where in the past it was 
more. So now that it is a less costly and it is more aligned 
with the duty status of a title 10 member that is on Active 
Duty, I am leaning and moving and driving our agency in that 
direction.
    Ms. Gabbard. How do your TAGs [The Adjutant Generals] feel 
about this move?
    General Rice. There are TAGs that sit on both sides of the 
fence because the Army is even a little bit different than the 
Air Force. So the Air Force, the TAGs lean towards yes, let us 
move to a more AGR force.
    Ms. Gabbard. The Air Force TAGs?
    General Rice. No, all TAGs in dealing with an Air Force 
program. And then all TAGs in dealing with an Army program need 
the split because there are still authorities differences and 
the benefits and value of authorities in both is of interest.
    But for the Air Force program, for all TAGs, they are 
leaning towards an AGR program.
    Ms. Gabbard. Okay. And so it is possible or likely perhaps 
that there would be a different, some changes made perhaps to 
the Air Force side, but not the Army side.
    General Rice. Correct. And it is all about percentages 
where I am 25,000 technicians, 14,000 AGRs. I am moving towards 
flipping that so that I have more AGRs than I do technicians. 
It is going to save the government money overall and it is 
going to reduce my duty status and complexities.
    Ms. Gabbard. Thank you.
    Lieutenant General Miller, you have, all of you have spoken 
about the manning shortages and the stress that that places on 
readiness and some of the challenges of recruiting. Given 
cyber, intel, and some of these other, pilots for that matter, 
areas where it is high demand and also high competition with 
the private sector, what are some of the tools that you folks 
are looking at in being able to recruit, given you are never 
going to be able to compete monetarily?
    General Miller. You know, we were talking about yesterday 
that recruiting is really not the issue. We can get them in the 
door. On the Active Component side, they are coming into the 
Air Force, they are coming into pilot training. On the Reserve 
side, I fill all my quotas with that.
    It is retaining them. So it is a retention issue. Once we 
get them in and get them trained, then, you know, only 17 
percent of the Active Component go to retirement. And in 
accessing 11Fs last year for the Air Force Reserve, and 
actually an average over the last 5 years, we have accessed on 
the 11F, which is the fighter pilot, around 23 percent of the 
pilots getting off of the Active Component.
    Overall, 11Ms, which are the mobility pilots, we access 
roughly 33 percent of those, almost equivalent to the Guard 
actually. Our accessions are almost equal with them for folks 
coming off.
    The accessions rate for pilots coming off the Active 
Component has decreased 6 percent over the last couple of years 
and the trend is down. So they are affiliating less with us and 
they are not getting to retirement, but they are leaving the 
Air Force early and then proceeding to the airlines.
    So it is not getting them in the door, it is keeping them 
and getting them to affiliate.
    Ms. Gabbard. I guess then the question is, is the same, 
then, you know, what are some approaches or do you conduct exit 
surveys to try to understand why folks are leaving? Is it 
purely financial? Is it, you know, the high OPTEMPO? Is it, you 
know, what are the things that are causing that to happen?
    General Miller. It is a balance between--it is a little bit 
of both. It is the OPTEMPO and some weapon systems. It is the 
draw of the airline because the airline has increased the pay 
over the last few years. And we just can't keep up with that, 
we can't match that.
    General West. I think four areas that--I am going to be 
redundant just a little bit. But we focus on production, 
absorption, retention, and requirements between the four of 
them. We will put forward initiatives for your consideration 
that relate to our increased capacity for production across 
Active and Reserve Components, same thing with absorption 
across the components.
    Thanks for the help with retention efforts for the bonus. 
But I think just as important with retention, it has to do with 
the capacity to train so that you have a sense that I am 
actually good at what I joined the Air Force to do.
    And finally with requirements, we limit where we put--we 
focus on the line first to be able to execute combat 
operations, which means we don't man staff positions as heavily 
as we once were able to. And the staff suffers for not having 
rated experience.
    Ms. Gabbard. Thank you.
    Mr. Wilson. Thank you, Congresswoman Gabbard.
    We now proceed to Congresswoman Martha McSally of Arizona.
    Ms. McSally. Thank you, Mr. Chairman. And thank you all for 
your testimony.
    I had another line of questioning, maybe I will get to it 
in round two, but I feel like I have heard some breaking news 
here today, and I want to just make sure I understand. Has 
there been a decision or a proposal by the Air Force to get rid 
of the F-15C and to replace it with F-16s with new radar on it? 
This is the first I have heard. I didn't see that in any of the 
budget documents, so I am just trying to understand. It has 
been mentioned now twice. What exactly are we talking about 
here?
    General West. I don't know if that is formal, but I know we 
are discussing ways to maximize the use of what limited total 
obligation authority that we have. And to minimize the number 
of systems that we operate and the sustainment for that, but 
still be able to accomplish the mission is what we are always 
trying to do to be able to address a myriad of things with the 
limited total obligation authority.
    So has it been official, is it official? I don't think so. 
But I want to be forthcoming.
    Ms. McSally. Is it predecisional?
    General West. Predecisional would be a good way to word 
that, ma'am.
    Ms. McSally. Predecisional Active Duty. What about in the 
Guard?
    General Rice. Yes, predecisional because we are actively a 
part of planning choices.
    Ms. McSally. Right.
    General Rice. And right now it is planning. We haven't made 
the choices yet. So planning choices started for 2019 last 
fall. We got and received this information. There are about 
four or five different things. One of the options is retiring 
the F-15Cs and then replacing them with F-16s with upgraded 
AESA [active electronically scanned array] radars. Can we do 
that? Is that a plan and time-wise? Is it the capability we 
want? Those are still in planning choices and we are talking 
about those.
    Ms. McSally. And let me just say I know sequestration has, 
you know, put all the services in a very, very difficult 
situation in the choices that you have all laid out. I totally 
get that. But as we are working through this process, I think 
the other subcommittee I am on, Tactical Air and Land, we would 
like to be a part of this discussion with you for sure.
    As you know, and I don't want to get into pilot rivalries 
here, but if we are talking about fourth-generation, you know, 
assets, you have got the F-15C which is, you know, prior to the 
F-22, the best at air-to-air; or had the A-10, best at close 
air support, rescue; F-15E if you want to do air interdiction. 
And the F-16 is an incredible, versatile, multi-role, a little 
bit less expensive, sort of, decathlete, right? Sort of fills 
in those gaps.
    So I think, you know, comparing the capabilities side by 
side, we all need to be careful through that analysis. That an 
F-16 with an upgraded radar does not meet the same capabilities 
as an F-15. But I realize the funding challenges that you have 
as you go through this decision process, but it doesn't bring 
the same capability that the F-15C does with the expertise in 
air-to-air.
    General Rice. That is correct. But I think we are getting 
beyond that. And as we get into the digital age and we get to 
these systems of systems, those systems and how they integrate 
is as important and in the future will be even more important 
than the platform itself. And so we are trying to balance that 
as well. How does one specific system with its optimized 
capability fit into a system of systems? And those are the kind 
of things that, you know, does a bunch of F-16s equal one F-15 
or numbers? And how does it integrate to the whole spectrum?
    Ms. McSally. Exactly. And I would just add----
    General Rice. It is part of planning choices.
    Ms. McSally. You know, we have had long discussions about 
the A-10 decision. But in hindsight, a lot of factors of how 
many of these does it take to replace this many A-10s on 
station and how many more tankers is that and how many more 
squadrons is that based on the weapons load?
    So just, you know, after the fact those were some 
considerations that weren't really, you know, GAO [Government 
Accountability Office] validated, weren't really looked into. 
So as you are going forward and looking at this, please, you 
know, learn those lessons.
    And I think there is also a readiness issue if we are 
talking about units that are shifting from F-15C to F-16. You 
now have a bunch of pilots who are qualified and capable and 
want airplanes and we are already in a readiness crisis. And if 
you are not retraining everybody to another aircraft, that does 
have, in the midst of a crisis, a bit of a short-term dip in 
readiness as well just as far as the capabilities and 
qualifications of those that are flying. Is that fair? Are you 
looking into that as a factor as well?
    General West. We do. And we manage how often and how 
quickly because when you are doing a change from one major 
weapon system to another, you are going to be off the line for 
a while.
    However, I would also, given the fact that our technology 
advantage that we enjoy today is lessening, it is important 
that we also achieve modernization as rapidly as possible. So 
we are going to have to take some units off the line to achieve 
the transition. But I think sooner is better, given that the 
investments that are being made by China and Russia 
particularly are pretty significant.
    Ms. McSally. Yes, I am with you on that point for sure. But 
with us being down to 55 fighter squadrons, we have just got to 
be careful on how that, manage, transition would happen should 
this decision come to fruition.
    Do you have any idea of the timeline? Is this, like, a 
fiscal year 2019 issue? Or where are you in the decision-making 
process on this? I just want to make sure we are asking the 
right questions.
    General Rice. I would say it is coming into 2019 for 
planning choices. I don't think we will get there, though, in 
this cycle. I think it is probably next year it will come more 
to a head.
    Ms. McSally. Okay. Thank you. I have a lot more questions 
for a second round, so I yield back now.
    Mr. Wilson. Thank you, Congresswoman McSally.
    We now proceed to Congressman Joe Courtney, of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman. I will be quick 
because I know the vote is happening right now on the floor.
    Again, thank you to all the witnesses for your testimony 
which I read, but I just kind of had to jump in from other 
stuff going on here.
    I just wanted to really quickly touch on the C-130 program 
which, again, Seapower and Readiness negotiated over the last 
couple of years with the NDAA [National Defense Authorization 
Act] and then with the budget the AMP 1 and 2 modernization, 
moving it up. I was just wondering if you could just sort of in 
public talk about, again, the Air Force's commitment to moving 
forward on that and how it is doing.
    General Rice. The Air Force is very committed to 
modernizing the C-130H. In fact, AMP 1 has been fully funded 
and we believe the timeline on what the technology that is 
coming to the table and what we are hearing from the contract 
will be ahead of schedule and we will meet the deadlines by 
2020.
    AMP 2 is not fully funded, but it is definitely fully 
committed to. That is outside the FYDP [Future Years Defense 
Program], most of that, so we have definitely laid in the right 
kind of money now during this fiscal budget and that program is 
well on track. I believe that will also come in early and under 
cost as well. So that is also in good shape.
    Mr. Courtney. Great. Ahead of schedule, under budget, those 
are----
    General Rice. Under budget, that is the word I was looking 
for, yes.
    Mr. Courtney. Yes, that is right, those are good messages.
    So with that, Mr. Chairman, I will yield back.
    Mr. Wilson. Thank you, Congressman Courtney.
    We now proceed to Congressman Rob Bishop, of Utah.
    Mr. Bishop. All right. I will get this in so we can both 
ask these questions in here today.
    Look, everything we ask is parochial. Obviously, I have 
Hill Air Force Base which has F-16s and F-35s and the Utah Test 
and Training Range which I consider, you know, a world-class 
national asset. If you don't, tough. It still is a national 
asset.
    However, with the new F-35s, advanced, modernized, 
electronic warfare threats, I am making the assumption that our 
test and training range need to be updated as well, even though 
we are simply suffering from the effects of years of 
maintenance backlog as well as deferred upgrades as time goes 
on. So I am assuming that is a given that we need to do that.
    Can you just tell me how the overall issue of test and 
training ranges modernization fits into the Air Force's future 
budget? How significant, where does it fit, where are you going 
with it? And you have got to do it in 30 seconds or less.
    General West. Yes, sir. I think you will see something in 
our budget submissions to address our operational and test and 
training infrastructure that addresses not only what we have on 
the ranges, but also what we can do via simulation and virtual 
systems as well.
    Mr. Bishop. That would be helpful. And the recent Red Flag, 
I think the 34th Squadron did a 15-to-1 kill ratio down there. 
Obviously, what is the need for adversary air for training 
purposes? And what is the Air Force's long-term strategy to 
provide that kind of training?
    General West. Largely contractual in the short term. Longer 
term, we will look to, after we get our operational forces 
filled with manning and longer term I think we will look at 
making that blue suit again. But in the short term----
    Mr. Bishop. Manpower comes first.
    General West. Manpower for--blue suiters for operational, 
and then training support will be contracted.
    Mr. Bishop. Thank you, I appreciate that. Trent, you have 
got 3 minutes. Go for it.
    Mr. Kelly. Thank you, Mr. Chairman. And thank you.
    I represent Columbus Air Force Base in Mississippi. And I 
know some of you have probably trained there or most people go 
through there at some point in time.
    My primary concern, I am also a serving National Guardsman. 
And I am a traditional guy. I am one of those non-AGR, non-
technician guys that I think are the heart and soul of our 
entire Reserve Component. We have to have all three of those 
things; the right mix is important.
    But I am concerned about a program now that transfers 
equipment, specifically airplanes, from one unit to another, 
specifically from National Guard or Reserve units to Active 
Component units based on usage in which the same people are 
determining what type of usage that they have are also making 
the decision of which assignments and how often you get to use 
those aircraft.
    Are you all familiar with what I am talking about, General 
West? Because that really concerns me that the same person 
would decide we are going to transfer airplanes based on usage 
requirements, but we are going to also control who gets to use 
what and which contracts people get and which ones goes to 
civilian and those kind of things. Are you all aware of that?
    General Rice. Yes, sir, I am definitely aware of that. And 
the fleet management program has a good side and a bad side. 
And some of the devil is in the details that could come out on 
the bad side if you move older aircrafts all to one unit 
through this fleet management program. That could be a bad 
side.
    But the good side of what fleet management does is, if you 
think about older aircrafts have to retire when they get to a 
certain end of their life and certain hours on the airframe, 
and if that happens sooner in some units because their OPSTEMPO 
is higher and they start falling off and retiring, and yet we 
have others that have 20, 30, 40, 50 years left in their life, 
we will have too much of a dispersion in the fleet.
    So we do need to narrow down the time in the fleet from 
something, like, some of our fleets, for example the C-17 
fleet, as we manage that C-17 right now has a 50- to 60-year 
timeframe when the first plane hits its end of life to the last 
plane. And we can't have our units that are out orphaned at the 
50-year point with just a few aircraft.
    So we need to squish that time down to, like, 20 years and 
move some of the older ones around, mix them in with the newer 
ones and do that and make sure we do no harm with the 
capability of the aircraft and the unit itself.
    Mr. Kelly. Just a final comment, Mr. Chairman.
    I just think it is very important that we not wind up with 
all the old-model equipment in the Guard and Reserve and all 
the other stuff wind up somewhere else. I think it is important 
that we look and smell alike across the board, that our Active, 
Reserve, and National Guard all look the same with the same 
types of equipment and that we don't go back to being a 
strategic Reserve as opposed to an operational Reserve.
    And I yield back, Mr. Chairman.
    General Rice. I couldn't agree more, sir.
    Mr. Wilson. And thank you, Congressman Kelly.
    Thank each of you for being here today. We are actually 
voting right this second.
    Before we leave, I do have a question for the record. How 
does a full-year CR [continuing resolution] impact readiness to 
the Air Force? How does it impact service members? And how does 
it impact families?
    [The information referred to can be found in the Appendix 
on page 51.]
    Mr. Wilson. Additionally, Congresswoman McSally has 
additional questions that she will be providing for the record.
    And at this time I want to thank Ms. Dean again for her 
service here.
    And again, thank each of you for being here and your 
service for our country.
    We are adjourned.
    [Whereupon, at 3:17 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 22, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 22, 2017

=======================================================================

     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 22, 2017

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. WILSON

    General Rice. The impact of a full-year CR to the Air National 
Guard (ANG) is manageable, assuming normal CR constraints were relaxed 
or eliminated. A full-year CR provides funding at FY16 levels, and 
overall the ANG will be able to fund required training, full-time 
manpower and mission essential requirements. For the ANG Operations and 
Maintenance (O&M) appropriation, a full-year CR represents an $88 
million increase over the current FY17 Conference Report numbers. 
Assuming there are no other statutory limits on funding for O&M, the 
ANG will be better off with a full-year CR in O&M. For the ANG Military 
Personnel appropriation, a full-year CR represents a decrease of $82 
million from the FY17 Conference Report numbers. Although the decrease 
will reduce the level of funding available for ANG readiness, the Air 
National Guard will still be able to maintain required training levels 
for FY17. A full-year CR will have one negative impact for ANG, in that 
National Guard Reserve Equipment Appropriation (NGREA) funding will not 
be available for FY17 which would affect the C-130 Avionics 
Modernization Program (AMP) and delay the C-130 modernization program. 
A full-year CR will not impact service members and will not impact 
families.   [See page 21.]
    General Miller. A full-year continuing resolution (CR) would stifle 
improvements in Air Force Reserve (AFR) readiness and degrade our 
ability to sustain any progress to date. It would cut crucial funding 
to our special tour program and Operations and Maintenance funds 
curtailing critical training and equipment. Aircrew proficiency 
training would be limited, as well as our key participation in joint 
exercises. A full-year CR would further decrease aircraft availability, 
shrink critical commodities and weaken our ability to meet the demands 
of the Air Force. The uncertain nature of a full-year CR uniquely 
affects AFR service member participation. The lack of predictable 
funding caused by a CR can create proficiency gaps for the AFR when 
training is forced to be rescheduled or cancelled, which can result in 
personnel becoming non-current in their AF specialty. In addition to 
impacting their military training, a full-year CR can negatively affect 
an AFR member's civilian employment, family, remuneration and morale. 
In particular, AFR Traditional Reservists (TR) may become hesitant to 
commit to their military training in an uncertain fiscal environment as 
most need to consider the impact on their civilian jobs. This hesitancy 
is because they do not want to take leave from a civilian job to 
participate with the AFR and subsequently have their military duty 
curtailed due to a lack of stable/predictable funds. This type of 
situation causes not only a loss of military pay for the member, but 
also a potential problem with their civilian employer and stress for 
their family.   [See page 21.]
    General West. A full-year Continuing Resolution (CR) will affect 
the Air Force's top readiness priorities with readiness recovery 
repercussions felt long after FY17. A full-year CR creates a $2.4B 
(Base and OCO) shortfall in the O&M portfolio that will need to be 
sourced at the expense of readiness requirements. It eviscerates our 
Flying Hour Program (FHP), grounds non-deploying squadrons, and 
degrades qualifications and proficiencies of remaining aircrew. This 
reduces the Air Force's ability to meet pilot production throughout and 
reduces readiness in Air Forces units for the foreseeable future. In 
addition, it forces a $1B cut to our Weapon System Sustainment (WSS) 
accounts, preventing us from maintaining predictable and sufficient 
funding for our sustainment actions--limiting aircraft availability, 
beyond those grounded for lack of FHP, needed for wartime and full-
spectrum training.
    The Air Force would need to reconsider participation in 3rd and 4th 
quarter live-fly exercises. Distributed exercises could be supported 
but would continue at a lower level of participation. While the Air 
Force cannot ``cancel'' any Combatant Command exercise, the Air Force 
could reduce participation in such exercises, which would impact 
training in support of combat capabilities.
    A year-long CR would also significantly reduce Air Reserve 
Component (ARC)-filled OCO taskings, causing significant degradation in 
Air Force support of current global operations.
    A full-year CR would have an adverse impact on our people and 
readiness recovery. We would have to cut over $2.8B in base and 
Overseas Contingency Operations (OCO) funding in the remaining five 
months of the Fiscal Year, forcing actions similar to those taken in 
2013 during Sequestration. In addition, the full-year CR halts efforts 
to grow active duty personnel end-strength as directed in the FY 2017 
National Defense Authorization Act (NDAA), preventing us from meeting 
our top readiness priority. It also inhibits manpower growth in new or 
expanding mission areas including Remotely-Piloted Aircraft (RPA), 
cyberspace operations, intelligence, surveillance, and reconnaissance 
(ISR), and nuclear command, control, and communications (NC3).
    The full-year CR would delay operational, unit, and training 
permanent-change-of-station moves until Fiscal Year 2018, halting all 
moves internal to the Continental U.S., creating a severe training 
backlog, and leaving positions vacant across the Air Force. This 
severely degrades the quality of life for our Airmen and their families 
in the process of moving, as schools, jobs, child care, and other plans 
are disrupted.
    It would defer bonus payments across numerous critical career 
fields, devastating critical programs we must have in place to retain 
Airmen with indispensable skillsets. Our taxpayers invest approximately 
$11M to produce each fifth-generation fighter pilot, and our active-
duty fighter pilot shortage is expected to exceed 1,000 by the end of 
Fiscal Year 2017. The Aviation Retention Bonus is critical to our 
efforts to address this crisis. Most important, deferring bonuses 
breaks faith with our Airmen, who make great sacrifices every day to 
defend our nation. It also would preclude filling civilian vacancies 
outside of mission-critical areas, which would directly increase 
workload demands on remaining personnel, decreasing quality of life.
    It would also halt all restoration and modernization projects, 
effectively cancelling 301 projects at 78 installations across the Air 
Force, including 51 directly related to maintaining Air Force readiness 
levels. It also limits facility projects to only those actions 
addressing life, health, and safety.
    A full-year CR would impact more than 60 Air Force acquisition new 
starts in aircraft, space, missile, and ammunition procurement while 
simultaneously curtailing our Research, Development, Test, and 
Evaluation efforts. In addition, it limits munitions production to 
Fiscal Year 2016 rates, which do not meet current usage and inventory 
requirements. Finally, inventory levels for flares, cartridges, and 
training munitions are already very low, impacting our aviators' 
ability to counter real-world enemy fire while reducing live fire 
training scenarios--both essential for success on the battlefield.   
[See page 21.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT
    General Rice. The fastest way to JSTARS Recap Initial Operational 
Capability (IOC) is to execute the current acquisition strategy. This 
strategy establishes the conditions required to create and exploit 
opportunities to accelerate IOC/Full Operational Capability through 
four means: (1) Radar Risk Reduction; (2) source selection criteria; 
(3) incentive fee structure; (4) and use of mix of contract types. The 
Air Force has and will continue to look for opportunities to 
accelerate. However, the focus at this stage--prior to selection of a 
prime contractor and integrated solution (platform, radar, battle 
management command and control, communications)--is on establishing the 
conditions for success. If there are opportunities to accelerate after 
selecting the prime contractor and integrated solution, the Air Force 
will brief the Congressional Defense Committees as directed in the FY17 
NDAA and Appropriations Act.   [See page 10.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
